No. 19In the

Supreme Court of the United States
JEROME BURGESS,
Petitioner,
v.
PHIL HALL, WARDEN TELFAIR STATE PRISON,
Respondent.

On Petition for a Writ of Certiorari to
the Supreme Court of Georgia

PETITION FOR A WRIT OF CERTIORARI

Brenda Joy Bernstein
Counsel of Record
The Bernstein Firm, P.C.
10540 Serenbe Lane
Palmetto, GA 30268
(404) 522-1200
bj@bernsteinfirm.com
Counsel for Petitioner

289752

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED FOR REVIEW
1.

Did the Georgia Supreme Court err in failing to find
that Petitioner’s appellate counsel provided ineffective
assistance by failing to argue on appeal that the
State’s failure to disclose exculpatory evidence
violated its obligation under Brady v. Maryland, 373
U.S. 83 (1963)?

2.

Did the Georgia Supreme Court err in failing to
find that Petitioner’s appellate counsel provided
ineffective assistance by failing to argue on appeal
that trial counsel was ineffective under Strickland v.
Washington, 466 U.S. 668 (1984) for failing to crossexamine Petitioner’s codefendant about his plea of
guilty but mentally retarded, his IQ test scores, and
evidence that he had malingered during psychological
testing related to his plea of incompetence?

ii
PARTIES TO THE PROCEEDING
Jerome Burgess, Plaintiff/Appellant/Petitioner
Phil Hall, Warden Telfair State Prison/Appellee/
Respondent

iii
RELATED CASES
Burgess v. Hall, Georgia Supreme Court, Docket No.
S19A0041 (2019). Judgment entered April 15, 2019.
Burgess v. Danforth, Superior Court of Telfair County,
Docket No.15-HC-008, judgment entered April 10, 2017.
Burgess v. State, Georgia Supreme Court, Docket No.
S13A0114 (2013). Judgment entered April 29, 2013.
Burgess v. State, Superior Court of Clayton County
Jury Trial, Docket No. 2009-CR-1364-5. Judgment
entered on October 26, 2010.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . ii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
SUPREME COURT JURISDICTION  . . . . . . . . . . . . . 1
CONSTIT U TIONA L PROV ISIONS A ND
STATUTES INVOLVED  . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
A. Habeas Proceeding which is material to the
questions presented before this Court  . . . . . . . . 3
B. Evidence Presented at Trial . . . . . . . . . . . . . . . . . 5
C. Motion for New Trial and Appeal . . . . . . . . . . . . .8
D. Weems’ Competency Trial  . . . . . . . . . . . . . . . . . . 9

v
Table of Contents
Page
ARGUMENT AND CITATION OF AUTHORITY . . 10
A. Mr. Burgess’ appellate attorney was
ineffective for failing to raise the issue that
Mr. Burgess’s due process rights under the
United States Constitution were violated
when the state withheld exculpatory evidence
in violation of Brady v. Maryland . . . . . . . . . . . 10
i.

The State failed to meet its obligations
under Brady . . . . . . . . . . . . . . . . . . . . . . . . . 10

ii.

Appellate counsel was ineffective
for failing to raise a Brady claim on
appeal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

B. Alternatively, Mr. Burgess’s appellate
attorney was ineffective for failing to argue
that his trial attorney was ineffective for
failing to investigate and cross-examine
Weems with the information stemming
from his special plea of incompetence . . . . . . . . . 16
i.

Trial counsel was ineffective for
failing to investigate Weems’ plea
of guilty but mentally retarded and
for failing to cross-examine Weems
with the information stemming from
his special plea of incompetence . . . . . . . . . 16

vi
Table of Contents
Page
ii.

Appellate counsel was ineffective for
failing to argue that trial counsel was
ineffective  . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

C. The Georgia Supreme Court err in failing
to find that appellate counsel provided
ineffective assistance . . . . . . . . . . . . . . . . . . . . . . 20
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

vii
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
SU PR EM E C OU RT OF GEORGI A ,
DATED APRIL 15, 2019 . . . . . . . . . . . . . . . . . . . . . . . 1a
A P P EN DI X B — F I NA L OR DER OF
THE SUPERIOR COURT OF TELFAIR
COU N T Y STAT E OF GEORGI A ,
DATED APRIL 6, 2017 . . . . . . . . . . . . . . . . . . . . . . . 11a

viii
TABLE OF CITED AUTHORITIES
Page
CASES
Banks v. Reynolds,
54 F.3d 1508 (C.A.10 1995) . . . . . . . . . . . . . . . . . . . . . 15
Brady v. Maryland,
373 U.S. 83, 83 S. Ct. 1194,
10 L. Ed. 2d 215 (1963) . . . . . . . . . . . . . . . . . . . . passim
Buck v. Davis,
137 S. Ct. 759, 197 L. Ed. 2d 1 (2017) . . . . . . . . . 15, 19
Burgess v. Hall,
827 S.E.2d 271 (2019) . . . . . . . . . . . . . . . . . . . . . . . 1, 20
Burgess v. State,
292 Ga. 821 (2013) . . . . . . . . . . . . . . . . . . . . . 1, 2, 15, 20
Danforth v. Chapman,
297 Ga. 29 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Davila v. Davis,
137 S. Ct. 2058, 198 L. Ed. 2d 603 (2017) . . . . . . . . . 15
Evitts v. Lucey,
469 U.S. 387, 105 S. Ct. 830,
83 L. Ed. 2d 821 (1985) . . . . . . . . . . . . . . . . . . . . . . . . 14
Giglio v. United States,
405 U.S. 150, 92 S. Ct. 763,
31 L. Ed. 2d 104 (1972) . . . . . . . . . . . . . . . . . . . . . . . . 11

ix
Cited Authorities
Page
Guyse v. State,
286 Ga. 574 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Jordan v. State,
272 Ga. 395 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Kyles v. Whitley,
514 U.S. 419 (1995)  . . . . . . . . . . . . . . . . . . . . . . . . 12, 13
Nalls v. State,
815 S.E.2d 38 (2018)  . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Napue v. Illinois,
360 U.S. 264, 79 S. Ct. 1173 (1959)  . . . . . . . . . . . . . . 12
Rompilla v. Beard,
545 U.S. 374, 125 S. Ct. 2456,
162 L. Ed. 2d 360 (2005) . . . . . . . . . . . . . . . . . . . .  16, 17
Smith v. Cain,
565 U.S. 73, 132 S. Ct. 627,
181 L. Ed. 2d. 571 (2012)  . . . . . . . . . . . . . . . . . . . . . . 10
Smith v. Robbins,
528 U.S. 259, 120 S. Ct. 746,
145 L. Ed. 2d 756 (2000) . . . . . . . . . . . . . . . . . . . . . . . 15
Strickland v. Washington,
466 U.S. 668, 104 S. Ct. 2052,
80 L. Ed. 2d 674 (1984) . . . . . . . . . . . . . . . . 3, 14, 15, 20

x
Cited Authorities
Page
Turner v. United States,
582 U.S. ___, 137 S. Ct. 1885,
198 L. Ed. 2d 443 (2017) . . . . . . . . . . . . . . . . . . . . . . . 10
United States v. Olsen,
737 F.3d 625 (9th Cir. 2013) . . . . . . . . . . . . . . . . . . . . 22
United States v. Thompson,
976 F.2d 666 (11th Cir. 1992) . . . . . . . . . . . . . . . . . . . 14
Walker v. Johnson,
282 Ga. 168 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
STATUTES AND OTHER AUTHORITIES
U.S. Const., amend. VI  . . . . . . . . . . . . . . . . . . . . . . . . 2, 14
U.S. Const., amend. XIV . . . . . . . . . . . . . . . . . . . . . . . 1, 12
28 U.S.C. 1257 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Sup. Ct. R. 13.4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
OPINIONS BELOW
The opinion of the Georgia Supreme Court, Appendix
A is reported at Burgess v. Hall, 827 S.E.2d 271 (2019).
The opinion of the Superior Court of Telfair County,
Appendix B denying Burgess request for habeas corpus
relief is unreported. The opinion of the Georgia Supreme
Court on the direct appeal is reported at Burgess v. State
292 GA.821 (2013).
SUPREME COURT JURISDICTION
The judgment of the Georgia Supreme Court, of which
Petitioner seeks review, was entered on April 15, 2019.
Mr. Burgess seeks review of a judgement of the Georgia
Supreme Court pursuant to 28 U.S.C. 1257. Pursuant to
United States Supreme Court Rule 13.4, Mr. Burgess’
Petition for Writ of Certiorari was due in this court July
15, 2019.
CONSTITUTIONAL PROVISIONS
AND STATUTES INVOLVED
Section One of the Fourteenth Amendment, United
States Constitution, which provides:
Section 1: All persons born or naturalized in the
United States and subject to the jurisdiction
thereof are citizens of the United States and of
the State wherein they reside. No State shall
make or enforce any law which shall abridge
the privileges or immunities of citizens of the
United States; nor shall any State deprive any
person of life, liberty, or property without due

2
process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.
The Sixth Amendment, United States Constitution,
which provides:
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by an
impartial jury of the State and district wherein
the crime shall have been committed, which
district shall have been previously ascertained
by law, and to be informed of the nature and
cause of the accusation; to be confronted with
the witnesses against him; to have compulsory
process for obtaining witnesses in his favor,
and to have the Assistance of Counsel for his
defence.
STATEMENT OF THE CASE
In October 2010, Petitioner Jerome Burgess was
convicted in Clayton County, Georgia of felony murder, six
counts of aggravated assault, and possession of a firearm
during the commission of a crime. Mr. Burgess timely filed
a Motion for New Trial, which was subsequently amended.
That motion was denied in January 2012. Mr. Burgess
appealed those convictions on direct appeal to the Georgia
Supreme Court, which affirmed his convictions on April
29, 2013. See Burgess v. State, 292 Ga. 821 (2013).
Mr. Burgess filed a petition for writ of habeas corpus
on January 23, 2015. The Superior Court of Telfair County
denied the petition for habeas relief on April 10, 2017.

3
Mr. Burgess appealed the denial to the Georgia
Supreme Court, which entered a decision affirming the
Superior Court’s denial of habeas relief on April 15, 2019.
A. Habeas Proceeding which is material to the
questions presented before this Court
Mr. Burgess filed a state habeas petition in Telfair
County, Georgia. raising two claims that raised federal
questions and relied on precedent set in Brady v.
Maryland, 373 U.S. 83, 83 S.Ct. 1194, 10 L.Ed.2d 215
(1963) and Strickland v. Washington, 466 U.S. 668, 104
S.Ct. 2052, 80 L.Ed.2d 674 (1984). Specifically, the issues
were: (1) appellate counsel was ineffective for failing to
argue on appeal that trial counsel was ineffective for
failing to cross-examine Mr. Burgess’s codefendant,
Andre Weems, about the fact that he had pled guilty but
mentally retarded, that his IQ was in the range of 52-55,
and that he had malingered during the psychological
testing related to his plea of incompetence; and (2)
appellate counsel was ineffective for failing to argue that
the State violated Brady v. Maryland by failing to disclose
the same information to counsel prior to trial.
The Superior Court handling the habeas denied relief
and the decision was appealed to the Georgia Supreme
Court again raising timely state and federal questions
and precedent in Brady and Strickland.
At the habeas hearing, Mr. Burgess introduced the
transcript of Weems’ jury trial on his plea of incompetence
and the related exhibits. (Id. at 32-33, 35; Petitioner’s Exh.
1). Mr. Burgess’ trial attorney, Robert Mack, testified that
he was never provided with information related to Weems’

4
intellectual and psychological testing prior to trial. (Tr.
at 7-8). He realized that Weems had pleaded guilty a
few weeks prior to Mr. Burgess’ trial, but he did not
investigate the plea or request additional information prior
to trial. (Id. at 8-9). He had requested Brady material, but
the State never provided any discovery related to Weems’
psychological testing or plea. (Id. at 9).
Mr. Mack testified that if he had known about Weems’
IQ and the related information, “I could have used that
to cross-examine a whole lot more and maybe convince
the jury that they had a retarded person that was on the
stand and maybe show also that the State didn’t even
believe him.” (Id. at 10). Mr. Mack agreed that he made a
mistake in not checking the records of a codefendant who
was testifying against his client, and that it was something
that he should have done. (Id. at 11).
Mr. Burgess’ appellate attorney, Steven Frey, then
testified that, during his representation of Mr. Burgess,
he had learned that Weems had pleaded guilty but
mentally retarded, but he did not seek out any additional
information or documentation related to that plea.
(Id. at 17-18). If he had known that there was a plea of
incompetence, related psychological evaluations, and
evidence that Weems had an IQ between 52 to 55, Mr.
Frey would have raised that issue on direct appeal. (Id.
at 19). He agreed that he had done an “incomplete job”
by not looking at the Clayton County courthouse to get
those records. (Id.). He acknowledged that he could have
gotten the plea transcript and court records from the
clerk’s office. (Id. at 27).

5
Mr. Frey testified that he asked Mr. Mack about his
limited cross-examination of Weems, but Mr. Mack “wrote
it off as trial strategy.” (Id. at 22). Mr. Frey stated that
he “probably backed away a little too early with Robert
Mack’s trial strategy response,” and that if he had known
what he knew now, he “would have done a great deal more.”
(Id. at 26). When asked if the decision not to call Mr. Mack
ineffective was a strategic decision, Mr. Frey testified, “I
didn’t have any idea about this issue, the IQ.” (Id.). Mr.
Frey had no other explanation for why he did not raise
any related issues on appeal. (Id. at 30).
B. Evidence Presented at Trial
In October 2008, Mr. Burgess was seventeen years
old and a senior in high school. He drove himself and a few
of his friends to a football game. (Tr. at 323-24; 327-38).
One of the friends was Andre Weems, his codefendant.
(Id. at 396). After the game, Mr. Burgess drove to Weems’
cousin’s house. (Id. at 403). Mr. Burgess and a friend
stayed in the truck while everyone else got out. (Id. at
403). Eventually, Weems returned and suggested that they
go to a party. (Id. at 404). Several people got in the truck
at that point while other people were in another car that
followed the truck. (Id. at 404-05). After attending first
party for a few minutes, the group left for another party,
but Mr. Burgess did not know where that party was. (Id.
at 337,405). Weems was directing Mr. Burgess. (Id. at
405-06; 181, 183 (Alexis Galovich)).
Mr. Burgess drove down a road and saw two males
and a female on the side of the road, so he asked Weems
if they were now at the party. (Id. at 407-09). Weems told
Mr. Burgess to stop in a cul-de-sac and to turn around,
and that he would check with the people in the other car

6
to see if they were in the right place. (Id.). Weems got
out of Mr. Burgess’ truck, went to the other car, which
had been following the truck, and then returned to the
truck and asked to get in the front seat. (Id. at 407-10).
Mr. Burgess thought Weems wanted to be in the front to
give him better directions. (Id. at 410-11).
Shortly after Weems got into the truck, Mr. Burgess
saw that Weems now had an AK-47, which he had
apparently obtained from the other car. (Id. at 411). Mr.
Burgess told Weems that he was not going to drive if
Weems had the AK-47. (Id. at 411). Mr. Burgess and
Weems went back and forth briefly, and Weems pointed
the gun at Mr. Burgess and told him to drive. (Id. at 412).
Weems nudged Mr. Burgess with the barrel of the gun.
(Id. at 450). Mr. Burgess was scared. (Id. at 412). He had
no intention of being involved in a shooting. (Id.).
Sensing what was about to happen, Mr. Burgess
flashed his lights a few times in an attempt to warn the
people ahead of him to get out of the way. The evidence
that he flashed the lights included his statement and was
corroborated by several witnesses including witnesses
who were friends of the victim who testified at trial that
the lights flashed several times. (Id. at 412-13; 52-53
(testimony of Sankeytoe Dunn); 171 (Anissa Johnson);
321).
Weems began to shoot out of the window. (Id. at 413).
Mr. Burgess sped up, driving fast in hopes that Weems
would not be able to hit anyone. (Id.). Mr. Burgess did
not know of Weems’ plan before Weems pointed the gun
at him, and he only drove because he feared for his life.
Mr. Burgess did not want Weems to shoot anyone, and he
flashed his lights and drove quickly to try to avoid anyone
getting hurt. (Id. at 473).

7
Weems testified that they were looking for a rival gang
member who had been at the football game earlier. (Tr. at
327, 329-30). When they left, they stopped at his cousin’s
home, where Weems retrieved the AK-47. (Id. at 332-33).
Initially, he put the AK-47 in the car that was following
Mr. Burgess’ truck. (Id. at 333). Weems testified that he
saw someone he thought could be in the rival gang, so the
cars stopped and he went to the car and got the gun out
of the car before getting back in the truck. (Id. at 337).
Weems got in the front seat of the truck. (Id. at 338). Mr.
Burgess drove the truck, while Weems shot the gun. (Id.
at 340). Weems testified that everyone in the truck knew
what the plan was, and that he never pointed the gun at
Mr. Burgess. (Id. at 365).
At trial, the State asked Weems the following:
Q And did you plead guilty to the shooting?
A Yes.
Q Did you – so you didn’t go to trial?
A No, ma’am.
(Id. at 341). At no point during the trial did the State
clarify and ask the witness or tell the jury that Weems
had plead guilty but mentally retarded. The State also
asked if it was Weems’ idea to wait two years to plead
guilty, and he stated that it was his attorney’s decision,
but that he knew everyone was going to testify against
him so he knew he had “no chance of winning.” (Id. at 367).
Again, the State simply used the wording “plead guilty”
without any reference to the actual plea entered of guilty

8
but mentally retarded. The State then asked Weems if he
had anything to gain by telling the jurors that he never
put a gun to Mr. Burgess’ head, to which he responded
that he did not. (Id. at 342).
Felix Irving testified that he had spoken with Weems,
and that Weems had told him that Mr. Burgess had
nothing to do with the shooting and that the incident was
not planned. (Id. at 381). Weems told Mr. Irving that he
was not going to let Mr. Burgess go to jail for something
that Mr. Burgess did not do. (Id.).
C. Motion for New Trial and Appeal
Mr. Burgess timely filed a generic motion for new trial.
(Tr. at 53). His appellate counsel Mr. Frey subsequently
amended the motion, including a claim that trial counsel
was ineffective for failing to “effectively cross-examine
Andre Weems, the testifying co-defendant, as to his
previous claims of incompetency and his final plea of guilty,
but mentally retarded.” (Id. at 56). The motion alleged
that the failure to cross-examine Weems was prejudicial
because Weems was “the only witness to testify [as to]
the defendant’s gang involvement and his culpability on
the instant offense.” (Id.).
At the hearing on the motion for new trial, Mr. Mack
testified that he was aware that Weems had entered a
guilty but mentally retarded plea. (Id. at 588-89). He found
out that there had been a trial on the issue of Weems’
competency shortly before Mr. Burgess’ trial. (Id. at 589).
Mr. Mack did not then believe that the fact of Weems’ plea
of guilty but mentally retarded would have “influence[d]
the jury one way or the other.” (Id. at 589-90).

9
D. Weems’ Competency Trial
Weems initially entered a special plea of incompetence
and went to a jury trial on that issue. (Tr. at 641). There,
Dr. James Powell testified Weems had a composite IQ of
53, with a 43 on the vocabulary test and a 70 on the nonverbal IQ. (Id. at 798). The records and testing indicated he
had a learning disability. (Id.). Weems had a long history
of a seizure disorder, which is shown to lower one’s IQ. (Id.
at 787-88). Weems “produced a cry for help profile.” (Id. at
793). He blamed other people for starting fights in the jail
and denied any responsibility for the fights occurring. (Id.
at 795). Weems reported that while he could tell some of
the details of the crime, he could not recount all of them.
(Id. at 796). Weems also had a history of uncontrolled
violent behavior. (Id. at 820). Dr. Powell did not believe that
Weems would be able to testify cogently. (Id. at 827, 861).
Weems told Dr. Powell that this incident was his first
time in court, when in reality, he had prior convictions. (Id.
at 850-52). He told Dr. Powell that he did not understand
what a negotiated plea was, but he had previously entered
a negotiated plea. (Id. at 854). He told Dr. Powell that he
did not have a job, but in his request for an attorney, he
indicated that he did have a job. (Id. at 860).
According to the State’s doctor, Don Hughey, Weems
had an IQ of 55, but Dr. Hughey did not consider that to
be a valid test score. (Id. at 949). This was due in part
to the fact that, in 1995, he had an IQ of 86, which was
almost average. (Id.). Weems claimed to Dr. Hughey that
he could not read or write. (Id. at 950). However, at the
time of his arrest, he had written a 1.5-page statement.
(Id.). Weems reported auditory hallucinations, the feeling

10
of something crawling on him, and a feeling that the
television was looking at him. (Id. at 951-52). His behavior
was inconsistent with hearing voices. (Id. at 953). Weems
indicated to the doctor that he had symptoms that were
clearly absurd or improbable. (Id. at 958).
Dr. Hughey then administered the test for malingering.
(Id. at 952). “The test has eight primary scales. Of
those eight scales, three were in the definite range for
malingering and five were in the probable range for
malingering. I would say there’s a [99.9]-percent chance
he was malingering.” (Id.). Malingering is defined as “the
deliberate fabrication or exaggeration of symptoms for the
purpose of secondary gain.” (Id.). The jury found Weems
competent to proceed to trial.
ARGUMENT AND CITATION OF AUTHORITY
A. Mr. Burgess’ appellate attorney was ineffective for
failing to raise the issue that Mr. Burgess’s due
process rights under the United States Constitution
were violated when the state withheld exculpatory
evidence in violation of Brady v. Maryland.
i.

The State failed to meet its obligations under
Brady.

In Brady, this Court held that the government violates
the Constitution’s Due Process Clause “if it withholds
evidence that is favorable to the defense and material
to the defendant’s guilt or punishment.” Smith v. Cain,
565 U.S. 73, 75, 132 S. Ct. 627, 181 L. Ed. 2d. 571 (2012),
Turner v. United States, 582 U.S. ___, 137 S. Ct. 1885,
198 L. Ed. 2d 443 (2017). The State’s suppression of

11
“evidence favorable to an accused upon request violates
due process where the evidence is material either to guilt
or to punishment, irrespective of the good faith or bad
faith of the prosecution.” Brady, 373 U.S. at 87, 83.
Brady’s requirement to disclose favorable evidence
to defendants extends to evidence that bears upon the
credibility of a government witness. Giglio v. United
States, 405 U.S. 150, 153–54, 92 S.Ct. 763, 31 L.Ed.2d
104 (1972).
Here, the State violated Brady by failing to disclose
to the defense the information related to co-defendant
Weems’ plea of incompetence, including the State’s
psychiatric evaluation of him, the determination by the
forensic psychiatrist that he was malingering, and the
other information from Weems’ competency jury trial.
First, the State obviously possessed the exculpatory
material because the same prosecutor conducted an entire
jury trial about it. (See T1 at 67, T3 at 638).
Second, before trial, Mr. Burgess did not possess the
information and could not obtain it with any reasonable
diligence. Specifically, he filed a notice of election to
participate in reciprocal discovery as provided by Georgia
law, which Georgia Courts have held is sufficient to meet
this prong. See, e.g., Walker v. Johnson, 282 Ga. 168, 169
(2007). Beyond that, the information related to Weems’
private psychological analysis, which was not available to
the general public before the transcripts were filed on the
docket. Notably, the transcripts from Weems’ jury trial on
competency were not filed until January 2011, after Mr.
Burgess was convicted at a jury trial. (See Tr. 3 at 637).

12
Accordingly, while there was publicly available evidence
about Weems’ plea of guilty but mentally retarded, the
deeper and much more material information at issue here
was not publicly available or accessible by to trial counsel
in any way.
Third, there is no question that the State withheld
the evidence, as it had it available but failed to disclose
it, despite the relevant requests by Mr. Burgess. Notably,
the State tried to hide the information from the jury at
trial, as it asked Weems about his guilty plea but never
clarified that he pleaded guilty but mentally retarded or
tell the jury that Weems went to trial on his incompetence
plea.1 (T.2 at 341).
Finally, there is a reasonable probability that, had the
evidence been disclosed, the outcome of the trial would have
been different. To meet this prong of Brady, a defendant
must show that “the government’s evidentiary suppression
undermines confidence in the outcome of the trial.” Kyles
v. Whitley, 514 U.S. 419, 434 (1995). “The question is not
whether the defendant would more likely than not have
received a different verdict with the evidence, but whether
in its absence he received a fair trial, understood as a trial
resulting in a verdict worthy of confidence.” Id. (quotation
omitted). A Brady violation exists even when there is
1. The State also asked Weems if he had any reason to
lie about not pointing the gun at Mr. Burgess, to which Weems
responded that he did not, but this does not appear to be true,
as Weems received the same sentencing recommendation as
Mr. Burgess due to his cooperation in this case despite his much
greater culpability. This has long been held to be a violation of a
defendant’s Fourteenth Amendment rights. See Napue v. Illinois,
360 U.S. 264, 79 S.Ct. 1173 (1959).

13
sufficient evidence to convict the defendant. Id. at 434-35
(“A defendant need not demonstrate that after discounting
the inculpatory evidence in light of the disclosed evidence,
there would not have been enough left to convict. The
possibility of an acquittal on a criminal charge does not
imply an insufficient evidentiary basis to convict.”).
Mr. Burgess testified at trial that he did not initially
know that Weems intended to commit a drive-by shooting,
that he was scared for his life when he saw Weems with
an AK-47, that Weems then nudged him with the AK-47
while telling him to drive, and that he did what he could
to avoid any harm to the people standing on the side of
the street, including flashing his lights and driving quickly
past them. This testimony shows that Mr. Burgess did not
have the sufficient intent to be guilty of these crimes. See
Guyse v. State, 286 Ga. 574, 576-77 (2010) (holding that
the State must prove a “general intent to injure” when the
defendant is accused of committing aggravated assault
through the use of a deadly weapon); Jordan v. State, 2 272
Ga. 395, 396 (2000) (explaining that, to be guilty as a party
to a crime, the parties must have a “common criminal
intent,” and that the jury must be able to “infer from the
conduct that the defendant intentionally encouraged the
commission of the criminal act”).
The impeachment evidence is favorable to Mr.
Burgess because Weems provided the only evidence that
contradicted Mr. Burgess’ testimony at trial. See Danforth
v. Chapman, 297 Ga. 29, 31 (2015) (“Since White was the
only witness who said Chapman confessed to arson, the
2. Jordan was overruled on other grounds by Nalls v. State,
815 S.E.2d 38 (2018).

14
evidence described above, which impeached and/or cast
doubt on White’s credibility, was material to Chapman’s
defense.“). Weems denied pointing the gun at Mr. Burgess
or coercing Mr. Burgess into acting, and testified that
Mr. Burgess knew what was going to happen, although he
also testified that Mr. Burgess had no role in the offense.
The information about Weems’ mental limitations, as
well as the potential that he was malingering during his
psychological testing, was exculpatory because it casts
doubt on Weems’ ability, or willingness, to accurately
remember and honestly convey a truthful account of the
night in question. If the jury had heard about Weems’
violent outbursts, his IQ, and his documented malingering/
lying, at minimum, a reasonable probability that the
jury would have acquitted Mr. Burgess on all charges
would have existed. See United States v. Thompson,
976 F.2d 666, 671 (11th Cir. 1992) (cross-examination
regarding mental issues is highly probative of the witness’
credibility). Because Mr. Burgess can meet all four prongs
of the Brady test, he has shown that the State violated
his due process rights.
ii.

Appellate counsel was ineffective for failing to
raise a Brady claim on appeal.

The Sixth Amendment right to counsel “is the right
to the effective assistance of counsel.” Strickland v.
Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674
(1984). In Evitts v. Lucey, this Court extended criminal
defendants’ constitutional right to effective assistance
to first appeals as of right pursuant under the Due
Process Clause. 469 U.S. 387, 396, 105 S.Ct. 830, 836, 83
L.Ed.2d 821 (1985) (“A first appeal as of right therefore
is not adjudicated in accord with due process of law if

15
the appellant does not have the effective assistance of an
attorney”). Strickland provides the proper standard for
addressing whether appellate counsel was ineffective.
Smith v. Robbins, 528 U.S. 259, 285, 120 S.Ct. 746, 145
L.Ed.2d 756 (2000). Under Strickland’s two-prong test,
a “defendant who claims to have been denied effective
assistance must show both that counsel performed
deficiently and that counsel’s deficient performance caused
him prejudice.” Buck v. Davis, 137 S.Ct. 759, 775, 197
L.Ed.2d 1 (2017) (citing Strickland, 466 U.S. at 687).
In the current case, the State withheld exculpatory
evidence in violation of its obligations under Brady
v. Maryland, 373 U.S. 83, 83 S. Ct.1194, 10 L. Ed.
2d 215 (1963). Appellate counsel’s failure to raise the
State’s Brady violation on appeal was both deficient and
prejudicial for Mr. Burgess’ appeal, meaning that counsel’s
failure to raise this issue on appeal deprived Mr. Burgess
of effective appellate representation. Failing to raise the
Brady violation was deficient because it was significantly
stronger than the issues that appellate counsel actually
raised on appeal. See Davila v. Davis, 137 S.Ct. 2058, 2067,
198 L.Ed.2d 603 (2017) (“Declining to raise a claim on
appeal, therefore, is not deficient performance unless that
claim was plainly stronger than those actually presented
to the appellate court.”) (citing Smith); Banks v. Reynolds,
54 F.3d 1508, 1515–1516 (C.A.10 1995) (finding both parts
of Strickland test satisfied where appellate counsel failed
to raise Brady violation). On appeal, Appellant counsel
raised issues related only to the trial court’s erroneous
admission of irrelevant evidence that suggested that Mr.
Burgess was a gang member. See Burgess v. State, 292 Ga.
821 (2013). None of this evidence impeached the testimony
of Weems, who provided nearly all of the evidence against
Mr. Burgess.

16
Mr. Frey, the appellate counsel, acknowledged that
his performance was deficient at the habeas hearing. He
testified that, if he had known of the information contained
in Weems’ trial transcripts, he would have raised that
issue on appeal. (Id. at 19). Further, he acknowledged that
he could have obtained the relevant documents from the
clerk’s office, and that he had done an “incomplete job”
by not getting those records. (Id. at 19, 27). Appellate
counsel’s deficient performance prejudiced Mr. Burgess
because if appellate counsel had investigated and litigated
a Brady claim based on the information presented at
Weems’ competency trial, there is a reasonable probability
that he would have ultimately prevailed on appeal.
B. Alternatively, Mr. Burgess’s appellate attorney was
ineffective for failing to argue that his trial attorney
was ineffective for failing to investigate and crossexamine Weems with the information stemming from
his special plea of incompetence.
i.

Trial counsel was ineffective for failing to
investigate Weems’ plea of guilty but mentally
retarded and for failing to cross-examine
Weems with the information stemming from
his special plea of incompetence.

Even if the Court concludes that the State did not
withhold information related to co-defendant Weems’ plea
of incompetence because trial counsel could have obtained
some of these materials, trial counsel was ineffective for
failing to investigate and discover these highly relevant
and probative documents. In Rompilla v. Beard, 545
U.S. 374, 125 S. Ct. 2456, 162 L. Ed. 2d 360 (2005), this
Court held that a defendant’s trial counsel was deficient

17
for failing to obtain a readily available court file on a
similar prior offense committed by the defendant, when
counsel knew that the prosecution intended to rely on
that offense at a death penalty sentencing hearing. The
Court concluded that “[n]o reasonable lawyer would forgo
examination of the file thinking he could do as well” by
simply asking around for helpful information. Id. at 389.
Upon learning that the primary witness against one’s
client had initially entered a special plea of incompetence
and then pleaded guilty but mentally retarded, any
competent attorney would have sought out information
related to that plea. See ABA Standards for Criminal
Justice 4-4.1 (describing defense counsel’s duty to
investigate, including “potential avenues of impeachment
of prosecution witnesses”). Although trial counsel knew
that Weems had pleaded guilty but mentally retarded, he
never sought out the relevant documents from that plea,
including the evaluations or the results of the trial on
his special plea of incompetence. If he had done so, trial
counsel would have discovered the following facts and then
cross-examined Weems with them: that Weems was prone
to random, uncontrollable acts of violence and that he lied
repeatedly to the psychologists for his own benefit. Trial
counsel would have also learned that the State allowed
Weems to plead guilty but mentally retarded even though
their own expert concluded that Weems was not a person
with an intellectual disability. This failure was plainly
deficient, as no reasonable attorney would have failed
to investigate records that directly addressed Weems’
credibility, when it was clear that Weems’ testimony was
going to be central to the State’s case against Mr. Burgess.

18
Trial counsel had no basis for failing to investigate this
information, which went directly to Mr. Burgess’ theory
of defense—that Weems suddenly decided to commit a
violent crime, that Mr. Burgess was scared for his life,
and that he had no intent to further Weems’ actions. At
the habeas hearing, Mr. Burgess’ trial attorney agreed
that, if he had investigated the issue further, he “could
have used that to cross-examine a whole lot more and maybe
convince the jury that they had a retarded person that was
on the stand and maybe show also that the State didn’t even
believe him.” (Tr. 1 at 10). Mr. Mack agreed that he made a
mistake in not investigating the records related to Weems,
and that it was something that he should have done. (Id. at 11).
This deficient performance resulted not from an intentional
strategic decision, but from inattention and a lack of diligence.
While Mr. Mack testified at the motion for new trial
hearing that he did not think that the jury would have been
impacted by learning of Weems’ plea of guilty but mentally
retarded, this testimony occurred when neither he nor
appellate counsel had the information currently before the
Court—the transcript from Weems’ jury trial on his special
plea of incompetence. There is no dispute that, at the time of
his motion for new trial testimony, Mr. Mack did not know
about the information at the crux of this appeal—that Weems
had repeatedly lied during his psychological testing for his
own benefit, that he was prone to random violent outbursts,
and that notwithstanding the near certainty that he was
not intellectually disabled, the State permitted him to plead
guilty but mentally retarded. Therefore, Mack’s decision
on how to cross-examine Weems at trial and his testimony
at the motion for new trial hearing were both uninformed.
Consequently, any decision is not subject to the deference
generally afforded thoughtful and intentional strategic
decisions.

19
Further, trial counsel’s deficient performance
prejudiced Mr. Burgess because, but for the deficient
performance, it is “reasonable probable” that “at least
one juror would have harbored a reasonable doubt” about
his guilt. Buck, 137 S.Ct. at 776. As discussed previously,
Weems’ testimony was crucial to the State’s efforts to
prove intent.
ii.

Appellate counsel was ineffective for failing to
argue that trial counsel was ineffective.

Appellate counsel was ineffective for not arguing
on appeal that trial counsel was ineffective for not
investigating and presenting the critical impeachment
evidence described above. Appellate counsel’s performance
was deficient because he did not raise the claim of
ineffective assistance against trial counsel, even though
the claim is and was meritorious for the reasons described
above. Appellate counsel’s decision not to raise a claim
of ineffective assistance of trial counsel was also based
on ignorance and a lack of reasonable investigation, as
he did not know of the information from Weems’ jury
trial on his special plea of incompetence until the habeas
proceedings. Accordingly, appellate counsel’s decision
cannot be strategic.
Further, appellate counsel’s deficient performance
prejudiced Mr. Burgess because if counsel had raised
that issue, there is a reasonable probability that the
outcome of the appeal would have been different. There
is at least a reasonable probability that, on appeal, this
Court would have vacated Mr. Burgess’ convictions if
presented with the claim that trial counsel was ineffective
for failing to investigate and to impeach Weems. Notably,
the Georgia Supreme Court’s decision affirming Mr.

20
Burgess’ convictions relied heavily on Weems’ testimony.
See Burgess, 292 Ga. 821. Therefore, even aside from the
claim of ineffective assistance of counsel, evidence that
destroyed Weems’ credibility as a witness would have been
useful to the evaluation of Mr. Burgess’ other claims on
appeal. Because appellate counsel performed deficiently
and because that deficient performance prejudiced Mr.
Burgess, Mr. Burgess is entitled to a new trial.
C. The Georgia Supreme Court err in failing to
find that appellate counsel provided ineffective
assistance.
In Burgess v. Hall, 827 S.E.2d 271 (2019), the Georgia
Supreme Court concluded that Mr. Burgess prevailed in
neither ineffectiveness claim because he did not satisfy the
prejudice prong of Brady or Strickland. The Court reasoned
that because trial counsel impeached Weems during the
trial with other evidence, the additional impeachment
evidence adduced at Weems’ competency trial would not
have necessarily helped Mr. Burgess’ case, meaning that
“there is no reasonable probability that the outcome of his
trial would have been different” had the State produced or
trial counsel discovered the evidence. Id. at 276.
To an extent, the Court is correct: the withheld
evidence was for impeachment; the trial transcript shows
that counsel impeached Weems extensively; and diagnosis
of an intellectual disability does not by itself make a
witness less credible. However, their characterization of
the withheld evidence as more-of-the-same impeachment
evidence is overly reductive. The detective’s testimony that
he thought Weems lied to him is of a different character
than the withheld evidence. Further, this Court should
reject the Georgia Supreme Court’s unstated premise

21
that because one type of impeachment was ineffective, no
impeachment could have been effective.
The State permitted Weems to plead guilty but
mentally retarded even though a prior IQ test and
malingering test suggested a 99.9 percent chance that he
was not mentally retarded. Notwithstanding this evidence,
the State permitted Weems to plead guilty but mentally
retarded. At trial, the State suborned Weems’ misleading
testimony that he “pleaded guilty,” not guilty but mentally
retarded. Because trial counsel did not know about the
particulars of Weems’ plea, either because the State
withheld evidence or he did not adequately investigate
the matter, he could not correct the record or ask Weems
about the circumstances surrounding his plea.
More importantly, Weems testified that he had nothing
to gain by testifying that he never put a gun to Mr.
Burgess’ head. If trial counsel had known that the State
negotiated Weems’ plea of guilty but mentally retarded
even though it knew that Weems was almost certainly not
intellectually disabled, counsel could have cross-examined
him substantially more effectively about the veracity of his
testimony. Trial counsel could have used evidence of Weems’
malingering coupled with the specifics of his plea to suggest
that Weems may have indeed had something to gain from
the content of his testimony. While the State may not have
encouraged Weems to alter his testimony with the promise
of a more favorable plea, their failure to disclose evidence to
Mr. Burgess deprived him of the opportunity to explore this
possibility. Certainly, there is a reasonable probability that
evidence impeaching Weems’ motivation for testifying as
he did could have caused at least one juror to view Weems’
testimony in a different light even though other, arguably
less compelling impeachment evidence did not.

22
CONCLUSION
In his dissent in United States v. Olsen, 737 F. 3rd 625,
626 ( 9th Cir. 2013), former Chief Judge Alex Kozinski
acknowledged what every criminal defense attorney
knows : “There is an epidemic of Brady violations abroad
in the land. Only judges can put a stop to it.” The continued
repeated instances of success across the country by such
organizations as The Innocence Project in which many
years later defendant’s are freed when hidden evidence is
later discovered should have prosecutors changing their
ways, but it has not. In this case, Mr. Burgess is asking
this Court to put a stop to the type of conduct in this
case: misrepresentation of the plea by the co-defendant
who testified against him and the failure of the State in
discovery to provide the Brady evidence that showed
a psychiatric examination in which the co-defendant
manipulated and malingered his responses. Accepting this
case for review and reversing the wrongs would be a loud
call to judges in the lower courts to stop Brady violations.
Respectfully submitted, this 15th day of July 2019.
Brenda Joy Bernstein
Counsel of Record
The Bernstein Firm, P.C.
10540 Serenbe Lane
Palmetto, GA 30268
(404) 522-1200
bj@bernsteinfirm.com
Counsel for Petitioner

APPENDIX

1a
Appendix of
A the SUPREME
Appendix A — opinion
COURT OF GEORGIA, DATED April 15, 2019
IN THE SUPREME COURT OF GEORGIA
S19A0041
BURGESS
v.
HALL.
April 15, 2019, Decided
Peterson, Justice.
Following a jury trial in October 2010, Jerome
Burgess was convicted of felony murder, three counts of
aggravated assault, and possession of a firearm during the
commission of a crime, and we affirmed his convictions.
Burgess v. State, 292 Ga. 821 (742 SE2d 464) (2013).
Burgess later filed a petition for a writ of habeas corpus,
alleging that appellate counsel was ineffective for failing
to argue on appeal that (1) trial counsel was ineffective
for failing to cross-examine effectively a testifying codefendant and (2) the State committed a Brady 1 violation
for failing to disclose impeachment evidence against that
co-defendant. The habeas court denied Burgess relief. We
granted Burgess’s application for a certificate of probable
1. Brady v. Maryland, 373 U. S. 83 (83 SCt 1194, 10 LE2d
215) (1963).

2a
Appendix A
cause, but we affirm because the habeas court correctly
rejected Burgess’s claims. 2
1.

Relevant background

The crimes for which Burgess has been convicted
stem from a drive-by shooting of three teenagers, one
of whom died. Burgess, 292 Ga. at 822 (1). The State’s
evidence showed that, in October 2008, Burgess drove
fellow members of the Murk Mob gang, including
his co-defendant Andre Weems, to a Clayton County
neighborhood in search of the leader of a rival gang with
whom they had had an altercation earlier that night. Id.
at 821-822 (1). When that effort proved unsuccessful, the
group instead decided to assault the three teenagers
who happened to be in the vicinity, so that Weems could
“get his stripes”; Weems opened fire as Burgess drove.
Id. at 822 (1).
Burgess and Weems were indicted together. Burgess
pleaded not guilty, and Weems pleaded guilty and testified
for the State at Burgess’s October 2010 trial. Weems
testified that everyone in the vehicle knew about the
plan to commit the drive-by shooting and that he never
pointed a gun at Burgess. Weems admitted during his
trial testimony that he had pleaded guilty to the shooting,
but the jury did not hear that he pleaded guilty but
intellectually disabled.
2. In addition to asking whether appellate counsel was
ineffective, we also asked whether coercion is a defense to felony
murder, but our resolution of the ineffectiveness claims does not
require us to answer this second question.

3a
Appendix A
Burgess testified and presented a different version
of events. Burgess testified that he did not know Weems
intended to commit a drive-by shooting, he did not want
to drive the vehicle, and Weems coerced him by pointing
the gun or nudging him with it and directing him to
drive. Burgess also called Felix Irving to testify in his
defense. Irving testified that Weems had called him after
the shooting to say that the shooting was not planned,
Burgess did not have anything to do with it, and Weems
was going to “straighten it out” so Burgess would not get
punished for something he did not do. At the conclusion
of Burgess’s trial, the jury found him guilty of felony
murder and other crimes, and we affirmed his convictions.
Burgess, 292 Ga. 821.
Burgess filed a habeas petition claiming that his
appellate counsel was ineffective in his handling of issues
regarding purported witness impeachment evidence
that the State allegedly did not disclose and that trial
counsel failed to uncover. The evidence Burgess cites as
impeachment evidence relates to the testimony of two
psychologists introduced at Weems’s competency trial
that occurred about a month before Burgess’s criminal
trial. The defense expert, Dr. James Powell, testified that
Weems had a composite IQ of 53, a learning disability, a
history of violent outbursts, and a seizure disorder. Dr.
Powell also testified that Weems had given conflicting and
incoherent accounts of the shooting and his prior criminal
convictions, but Dr. Powell could not determine whether
Weems was intentionally lying, confused, or simply could
not remember.

4a
Appendix A
The State’s expert, Dr. Don Hughey, also testified
at Weems’s competency trial that Weems scored low on
an IQ test, but he did not consider the result to be valid
because Weems had scored an 86 on a prior test and there
was no evidence that Weems had an intervening factor,
such as a serious head injury, to explain the drop in his
IQ score. Dr. Hughey also performed a malingering test
on Weems after Weems reported auditory hallucinations,
and Dr. Hughey concluded that there was a 99.9 percent
chance that Weems was malingering.
Burgess argued that the experts’ testimony provided
information that would have affected the jury’s assessment
of Weems’s credibility, including whether he acted
alone or whether Burgess participated in the shooting.
Following a hearing, the habeas court denied Burgess’s
habeas petition, concluding that Burgess failed to show
that appellate counsel was deficient as to Weems’s crossexamination or that any deficiency prejudiced him. The
habeas court also denied relief on Burgess’s claim that
appellate counsel was ineffective for failing to raise a
Brady claim on appeal, concluding that appellate counsel,
despite being aware of Weems’s guilty plea, made a
considered choice to raise the issues that were most likely
to lead to a reversal of Burgess’s convictions; the habeas
court also concluded that Burgess made no showing of
prejudice.
2. Burgess argues that the habeas court erred in
denying his claim that appellate counsel was ineffective
regarding trial counsel’s failure to investigate Weems’s
competency and guilty pleas and then cross-examine
Weems with the information introduced at Weems’s
competency trial. We disagree.

5a
Appendix A
For Burgess to prevail on an ineffective assistance
of counsel claim, he must satisfy the familiar standard of
Strickland v. Washington, 466 U. S. 668 (104 SCt 2052,
80 LE2d 674) (1984). Under that standard, Burgess must
prove that his lawyer’s performance was constitutionally
deficient and that he was prejudiced by the deficient
performance. Id. at 687. To show deficient performance,
Burgess must prove that his counsel acted or failed to act
in an objectively unreasonable way, considering all the
circumstances and in the light of prevailing professional
norms. See id. at 687-690. “This is no easy showing, as
the law recognizes a strong presumption that counsel
performed reasonably,” and to overcome this presumption,
Burgess “must show that no reasonable lawyer would have
done what his lawyer did, or would have failed to do what
his lawyer did not.” Davis v. State, 299 Ga. 180, 183 (2)
(787 SE2d 221) (2016) (citation and punctuation omitted).
“Where the issue is the ineffective assistance of
appellate counsel, the showing of prejudice calls for
a demonstration that a reasonable probability exists
that, but for appellate counsel’s deficient performance,
the outcome of the appeal would have been different.”
Gramiak v. Beasley, 304 Ga. 512, 513 (I) (820 SE2d 50)
(2018) (citing Humphrey v. Lewis, 291 Ga. 202, 211 (IV)
(728 SE2d 603) (2012)). When a defendant claims that his
appellate counsel was ineffective for failing to raise a claim
on direct appeal that trial counsel was ineffective, there
are two layers of Strickland analysis. Gramiak, 304 Ga.
at 513 (I). To show that appellate counsel was ineffective
for failing to argue that trial counsel was ineffective, a
defendant must show that trial counsel was deficient and
the deficiency prejudiced the trial.

6a
Appendix A
Here, Burgess’s appellate counsel did raise the issue
of trial counsel’s ineffectiveness in Burgess’s motion for
new trial and questioned trial counsel about his crossexamination of Weems during the motion for new trial
hearing. Trial counsel testified at the motion for new trial
hearing that prior to trying Burgess’s case, he became
aware that there had been a trial on Weems’s competency
and that Weems had pleaded guilty but intellectually
disabled. Trial counsel stated that he did not believe
Weems’s guilty plea would have influenced the jury’s
credibility determination in any way, and that he had
more effective points on which to cross-examine Weems,
including Weems’s statements to a detective.
The transcript from Burgess’s trial reflects that
trial counsel indeed impeached Weems’s credibility
extensively. In particular, through cross-examination,
Weems admitted that he first told the detective he did not
know anything about the shooting, then said Burgess and a
young woman “set[] everything up,” claimed that Burgess
was the shooter, and finally admitted that he was the
shooter. Trial counsel also elicited testimony from Weems
that he told the detective, “if I’m going down, everybody’s
going down,” because he was mad that people had “ratted
[him] out.” While cross-examining the detective, trial
counsel elicited testimony that the detective knew that
Weems was lying when he claimed to not be involved in
the shooting and named Burgess as the shooter, and the
detective described Weems’s initial statements as being
part of his “lies and deception.”

7a
Appendix A
Appellate counsel testified at the habeas hearing
that he did not pursue the ineffectiveness claim on
appeal because trial counsel had claimed that his crossexamination of Weems was a matter of trial strategy, and
appellate counsel did not believe he could satisfy both
Strickland prongs on appeal. Appellate counsel also stated
that had he known about Weems’s low IQ, he “would have
done a great deal more” and that he backed away from
the ineffectiveness issue a little too quickly in retrospect.
Trial counsel similarly testified at the habeas hearing that
had he known about Weems’s diminished mental abilities,
he would have used that information to cross-examine
Weems “a whole lot more” and “maybe” show that even
the State did not believe Weems. Trial counsel considered
his failure to investigate Weems’s records to amount to
ineffective assistance of counsel.
Trial counsel’s hindsight assessment of his own
performance does not control. See Kennedy v. State, 304
Ga. 285, 288 (2) (818 SE2d 581) (2018). But even if we
agreed with trial counsel that he was deficient on this
point, Burgess cannot show prejudice. Weems’s credibility
was severely impeached at trial with his prior inconsistent
statements to the detective, so much so that trial counsel
got the detective to say that Weems’s initial statements
to the detective were “lies and deception.” Any additional
attack on Weems’s credibility would have had marginal
value.
Before the habeas court, Burgess argued that evidence
of Weems’s intellectual disabilities could have been used
to impeach him. But a witness’s low IQ, by itself, does
not make the witness incredible. Even considering IQ as

8a
Appendix A
a factor in an overall credibility determination, Burgess
fails to show that Weems’s low IQ would have damaged
Weems’s credibility any more than it already was.
Although Burgess did not focus on the evidence of
Weems’s malingering in questioning appellate or trial
counsel, this evidence is probably the best impeachment
evidence that could have been obtained from Weems’s
competency trial. But even this evidence would have
had marginal value to Burgess, as it would only have
been additional evidence supporting the already wellestablished pattern of Weems’s “lies and deception.” See
McCoy v. State, 303 Ga. 141, 143 (2) (810 SE2d 487) (2018)
(evidence with marginal impeachment value does not
establish prejudice). Even when considered cumulatively,
the evidence from Weems’s competency trial would have
made little difference to Weems’s noted lack of credibility.
Moreover, despite his attempts to undercut Weems’s
credibility, Burgess also simultaneously sought to rely
on statements Weems made, and he continues to do so
on appeal. To corroborate his own testimony that he
had nothing to do with the crime, Burgess cites the
testimony of Felix Irving that Weems told Irving that
Burgess had nothing to do with the shooting and Weems
was going to make sure Burgess did not get punished
for something he did not do. Burgess wants to credit
Weems’s statement that Burgess was not involved in the
shooting but discredit Weems on other points. Given these
circumstances, there is no reasonable probability that
additional impeachment of Weems would have made any
difference to the outcome of the trial. See Barrett v. State,

9a
Appendix A
292 Ga. 160, 177-178 (3) (C) (4) (733 SE2d 304) (2012) (given
trial counsel’s cross-examination of witness regarding
the inconsistencies between her testimony and prior
statement to police, appellant failed to show a reasonable
probability that result of trial would have been different
with additional impeachment of witness).
Because Burgess cannot demonstrate that he was
prejudiced by trial counsel’s failure to obtain additional
impeachment evidence and cross-examine Weems with it,
he cannot establish that appellate counsel was ineffective
for not pursuing an ineffectiveness claim against trial
counsel. See Rozier v. Caldwell, 300 Ga. 30, 33 (3) (793
SE2d 73) (2016) (“Because appellate counsel could not have
prevailed on a claim that trial counsel provided ineffective
assistance by not pursuing such a cross-examination,
appellant cannot show prejudice on his claim that appellate
counsel was ineffective in failing to assert such a claim
on appeal.”).
3. Burgess next argues that appellate counsel was
ineffective for failing to argue on appeal that the State
violated Brady by failing to disclose the impeachment
evidence noted above. Because Burgess’s claims relate
to appellate counsel’s purported ineffectiveness, he must
establish a reasonable probability that the outcome of
the appeal would have been different but for appellate
counsel’s deficient performance. See Gramiak, 304 Ga.
at 513 (I). This he cannot do.
To prove a Brady violation, a defendant must show
that:

10a
Appendix A
(1) the State, including any par t of the
prosecution team, possessed evidence favorable
to the defendant; (2) the defendant did not
possess the favorable evidence and could not
obtain it himself with any reasonable diligence;
(3) the State suppressed the favorable evidence;
and (4) a reasonable probability exists that the
outcome of the trial would have been different
had the evidence been disclosed to the defense.
Anthony v. State, 302 Ga. 546, 552 (III) (B) (807 SE2d
891) (2017) (citation and punctuation omitted).
Burgess cannot establish the fourth Brady prong.
Burgess claims the undisclosed information could have
been used to impeach Weems, but, as discussed above,
Weems’s testimony had been significantly impeached at
trial and further impeachment would not necessarily have
helped Burgess’s case. As a result, even if the relevant
materials had been disclosed to Burgess, there is no
reasonable probability that the outcome of his trial would
have been different, and a Brady claim would have failed.
See Whatley v. Terry, 284 Ga. 555, 560-561 (II) (B) (2) (668
SE2d 651) (2008) (finding no Brady violation from State’s
failure to disclose police interview of eyewitness that the
defendant claimed could have been used for “enhanced”
cross-examination, because it was established at trial
that eyewitness could not be relied upon). Accordingly,
Burgess’s claim that appellate counsel was ineffective on
this ground fails.
Judgment affirmed. All the Justices concur.

11a
Appendix
B
Appendix b —
FINAL ORDER
of the
SUPERIOR COURT OF TELFAIR COUNTY
STATE OF GEORGIA, DATED APRIL 6, 2017
IN THE SUPERIOR COURT OF TELFAIR
COUNTY STATE OF GEORGIA
CIVIL ACTION NO: 15-HC-008
HABEAS CORPUS
JEROME BURGESS GDC-0000557229,
Petitioner,
v.
PHIL HALL, WARDEN,
Respondent.
FINAL ORDER
Petitioner, JEROME BURGESS, filed this petition
for Writ of Habeas Corpus challenging the validity of his
October 21, 2010, Clayton County jury trial convictions
for felony murder, six (6) counts of aggravated assault,
and possession of a firearm during commission of a crime.
Based upon the record as established at the October 20,
2015, evidentiary hearing, this Court denies relief based
upon the following findings of fact and conclusions of law.

12a
Appendix B
PROCEDURALLY HISTORY
Petitioner was indicted by the Clayton County
Grand Jury on or about June 4, 2009, for malice murder,
felony murder, nine (9) counts of aggravated assault, and
possession of a firearm during the commission of a crime.
(Habeas Hearing Transcript October 20, 2015, pp. 41-45,
hereinafter “HT”). Following a jury trial on October 26,
2010, Petitioner was found guilty of felony murder, six (6)
counts of aggravated assault, and possession of a firearm
during the commission of a crime. (HT 49). Petitioner was
sentenced to life with the possibility of parole. (HT 49).
Petitioner filed his Motion for New Trial, through
counsel, on November 16, 2010, in the Superior Court of
Clayton County, alleging the following errors:
1.

Because the verdict and sentences are contrary
to the evidence and without evidence to support
it;

2.

Because the verdict and sentences are decidedly
and strongly against the weight of the evidence;
and

3.

Because the verdict and sentences are contrary
to law and the principles of justice and equity.
(HT 51).

Petitioner filed his Amended Motion for New Trial,
through counsel, on December 9, 2011, in the Superior
Court of Clayton County, alleging the following errors:

13a
Appendix B
1.

The introduction of gang related testimony;

2.

The introduction of several unauthenticated
photos;

3.

Ineffective assistance of counsel, because counsel
was unable to counter the unsubstantiated claims
of gang involvement; and

4.

Trial counsel was ineffective in his failure to
effectively cross-examine Andre Weems, the
testifying co-defendant, as to his previous claims
of incompetency and his final plea of guilty, but
mentally retarded. (HT 55-56).

An Order denying Petitioner’s Motion for New Trial and
Amended Motion for New Trial was issued by the Superior
Court of Clayton County on January 26, 2012. (HT 59).
Petitioner filed his Motion to Supplement Motion for
New Trial, through counsel, on June 8, 2012, alleging that
there was newly discovered evidence as Petitioner’s cocounsel, Andrew Weems, had recanted his trial testimony.
(HT 61). An Order dismissing Petitioner’s Motion to
Supplement Motion for New Trial for lack of jurisdiction,
as Petitioner had a pending appeal in the Supreme Court
of Georgia, was issued by the Clayton County Superior
Court on June 14, 2012. (HT 63).
Petitioner’s convictions were affirmed on appeal by
the Supreme Court of Georgia. (HT 630-633); Burgess
v. State, 292 Ga. 821 (2013). On appeal Petitioner alleged
the following errors:

14a
Appendix B
1.

The trial court erred when, over appellant’s
objection, it allowed Clayton County police officer
David Ricks to be qualified as an expert in gang
identity and investigation;

2.

The trial court erred when it permitted Officer
Ricks to testify about a map of gang territories
which he created and which was used as a
demonstrative exhibit during trial;

3.

The trial court erred when it allowed the
admission of a document Officer Ricks had
printed as part of his investigation from the social
media website MySpace;

4.

The trial court erred when it allowed the
admission of evidence that appellant was wearing
colors and making signs associated with the Murk
Mob gang; and

5.

The trial court erred when it allowed the
admission of evidence concerning the altercation
that took place at the football game hours before
the shooting occurred. Id.

Petitioner filed the instant habeas petition, through
counsel, in the Superior Court of Telfair County on
January 23, 2015. An evidentiary hearing was held on
October 20, 2015, at which trial counsel and appellate
counsel testified and were subjected to cross-examination.

15a
Appendix B
GROUND ONE
In Ground One, Petitioner alleges he received
ineffective assistance of appellate counsel for counsel’s
failure to raise ineffective assistance of trial counsel for
trial counsel’s failure to cross-examine Petitioner’s codefendant, who testified he was guilty but was mentally
ill, and alleges trial counsel failed to cross-examine
Petitioner’s co-defendant, who pled guilty but was
mentally ill.
Findings of Fact
Petitioner was represented at the trial level by Robert
Lee Mack, Jr. (HT 7). Petitioner was represented by
Steven Frey at the appellate level. (HT 15). Appellate
counsel was admitted to the State Bar of Georgia in 1993
and has handled between fifteen and twenty appeals. (HT
15, 20). Appellate counsel testified that in preparation for
Petitioner’s appeal, counsel read through the transcript
twenty or thirty times, reviewed discovery, and discussed
the case with trial counsel. (HT 20-21).
Appellate counsel testified that in his review of the trial
transcript he had noted that trial counsel had done a very
limited cross-examination of Petitioner’s co-defendant,
Andre Weems, and he raised this issue in Petitioner’s
Motion tor New Trial, but once trial counsel indicated that
this was merely trial strategy, appellate counsel did not
press the issue any further. (HT 22). Appellate counsel
further testified that while there were things that he would
have done differently than trial counsel, he did not identify

16a
Appendix B
any errors by counsel that would have altered the outcome.
Id. Counsel testified that it had occurred to him to raise
claims regarding ineffective assistance of trial counsel, but
he ultimately chose not to raise any ineffective assistance
claims. (HT 26). Counsel testified that he believes that he
was aware that Petitioner’s co-defendant, Andre Weems,
had pled guilty but mentally retarded. (HT 29). Counsel
further testified, that based on what he knew, he raised
the issues that he felt were most likely to lead to a reversal
of Petitioner’s convictions. (HT 30).
Conclusions of Law
The test for establishing ineffective assistance of
counsel was set forth in Strickland v. Washington, 466
U.S. 668 (1984). Under this two-prong test, Petitioner
must show (1) the attorney’s performance was deficient,
meaning that counsel made errors so serious that he was
not functioning as “counsel” guaranteed by the Sixth
Amendment, Strickland, 466 U.S. at 687; and (2) that
this deficient performance prejudiced the defense, that
is, that counsel’s errors were so serious as to deprive
Petitioner of a fair trial with a reliable result. Id. at 694.
To establish that an appellate attorney was ineffective,
a habeas corpus petitioner must show that his appellate
counsel’s decision not to raise a particular issue was an
unreasonable decision which only an incompetent attorney
would make, with the controlling principle being whether
appellate counsel’s decision “was a reasonable tactical
move which any competent attorney in the same situation
would have made.” Shorter v. Waters, 275 Ga. 581 (2002).

17a
Appendix B
Petitioner has failed to show that appellate counsel’s
performance was deficient or that he was prejudiced by
it. The record shows that appellate counsel testified that
in his review of the trial transcript he had noted that
trial counsel had done a very limited cross-examination
of Petitioner’s co-defendant, Andre Weems, and he raised
this issue in Petitioner’s Motion for New Trial, but once
trial consul indicated that this was merely trial strategy,
appellate counsel did not press the issue any further.
Appellate counsel further testified that while there were
things that he would have done differently than trial
counsel, he did not identify any errors by counsel that
would have altered the outcome. Counsel testified that it
had occurred to him to raise claims regarding ineffective
assistance of trial counsel, but he ultimately chose not to
raise any ineffective assistance claims. Counsel testified
that he believes that he was aware that Petitioner’s codefendant, Andre Weems, had pled guilty but mentally
retarded. Counsel further testified, that based on what
he knew, he raised the issues that he felt were most
likely to lead to a reversal of Petitioner’s convictions.
Further, Petitioner has failed to show a likelihood that the
outcome would have been different had appellate counsel
represented Petitioner differently, and thus has failed to
show that appellate counsel was ineffective.
Accordingly, Ground One provides no basis for relief.

18a
Appendix B
GROUND TWO
In Ground Two, Petitioner alleges he received
ineffective assistance of appellate counsel for counsel’s
failure to raise Brady violations when the State failed to
provide exculpatory evidence that the shooter, Petitioner’s
co-defendant, pled guilty despite being mentally retarded,
a fact the State failed to provide in discovery, including
the co-defendant’s psychiatric reports which summarized
his mental retardation.
Findings of Fact
Petitioner was represented at the trial level by Robert
Lee Mack, Jr. (HT 7). Petitioner was represented by
Steven Frey at the appellate level. (HT 15). Appellate
counsel was admitted to the State Bar of Georgia in 1993
and has handled between fifteen and twenty appeals. (HT
15, 20). Appellate counsel testified that in preparation for
Petitioner’s appeal, counsel read through the transcript
twenty or thirty times, reviewed discovery, and discussed
the case with trial counsel. (HT 20-21).
Appellate counsel testified that it had occurred to him
to raise claims regarding ineffective assistance of trial
counsel, but ultimately chose not to raise any ineffective
assistance claims. (HT 26). Counsel testified that he
believes that he was aware that Petitioner’s co-defendant,
Andre Weems, had pled guilty but mentally retarded. (HT
29). Counsel testified that he did not have reason to believe
that clerk’s records would be different from what the State
provided in discovery. (HT 31). Counsel further testified,

19a
Appendix B
that based on what he knew, he raised the issues that he
felt were most likely to lead to a reversal of Petitioner’s
convictions. (HT 30).
Conclusions of Law
The test for establishing ineffective assistance of
counsel was set forth in Strickland v. Washington, 466
U.S. 668 (1984). Under this two-prong test, Petitioner
must show (1) the attorney’s performance was deficient,
meaning that counsel made errors so serious that he was
not functioning as “counsel” guaranteed by the Sixth
Amendment, Strickland, 466 U.S. at 687; and (2) that
this deficient performance prejudiced the defense, that
is, that counsel’s errors were so serious as to deprive
Petitioner of a fair trial with a reliable result. Id. at 694.
To establish that an appellate attorney was ineffective,
a habeas corpus petitioner must show that his appellate
counsel’s decision not to raise a particular issue was an
unreasonable decision which only an incompetent attorney
would make, with the controlling principle being whether
appellate counsel’s decision “was a reasonable tactical
move which any competent attorney in the same situation
would have made.” Shorter v. Waters, 275 Ga. 581 (2002).
Petitioner has failed to show that appellate counsel’s
performance was deficient or that he was prejudiced by it.
The record shows that appellate counsel testified that it
had occurred to him to raise claims regarding ineffective
assistance of trial counsel, but he ultimately chose not to
raise any ineffective assistance claims. Counsel testified
that he believes that he was aware that Petitioner’s co-

20a
Appendix B
defendant, Andre Weems, had pled guilty but mentally
retarded. Counsel testified that he did not have reason to
believe that clerk’s records would be different from what
the State provided in discovery. Counsel further testified,
that based on what he knew, he raised the issues that he
felt were most likely to lead to a reversal of Petitioner’s
convictions. Further, Petitioner has failed to show a
likelihood that the outcome would have been different
had appellate counsel represented Petitioner differently,
and thus has failed to show that appellate counsel was
ineffective.
Accordingly, Ground Two provides no basis for relief.
CONCLUSION
Wherefore, the instant petition for a Writ of Habeas
Corpus is DENIED.
If Petitioner desires to appeal this Order, Petitioner
must file a written application for certificate of probable
cause to appeal with the Clerk of the Supreme Court of
Georgia within thirty (30) days from the date of the filing
of this Order. Petitioner must also file a Notice of Appeal
with the Clerk of the Superior Court of Telfair County
within the same thirty (30) day period.
The Clerk of the Superior Court of Telfair County
is hereby DIRECTED to mail a copy of this Order to
Petitioner, Respondent, and Special Assistant Attorney
General Daniel M. King Jr.

21a
Appendix B
SO ORDERED this 6th day of April, 2017
/s/						
C. MICHAEL JOHNSON, Judge
Oconee Judicial Circuit

